          OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Public Liaison Report



        EPA Is Properly Addressing
        the Risks of Using Mercury
        in Rituals
        Report No. 2006-P-00031

        August 31, 2006
Report Contributors:	              Christine Baughman
                                   Larry Dare
                                   Stephen Schanamann




Abbreviations

ATSDR         Agency for Toxic Substances and Disease Registry
EPA           U.S. Environmental Protection Agency
OIG           Office of Inspector General
TSCA          Toxic Substances Control Act




Cover Photo:	 A necklace containing liquid mercury in the pendant. Photo courtesy of EPA’s
              January 2005 report, Ritualistic Use of Mercury Simulation: A Preliminary
              Investigation of Metallic Mercury Vapor Fate and Transport in a Trailer.
                       U.S. Environmental Protection Agency                                              2006-P-00031

                                                                                                       August 31, 2006

                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            EPA Is Properly Addressing the Risks of
In February 2005, a               Using Mercury in Rituals
representative of the Mercury
Poisoning Project, a private       What We Found
organization that provides the
public with information on the
                                  EPA staff and the Mercury Poisoning Project representative agree that the ritual
dangers of being exposed to
mercury, identified concerns      use of mercury poses a health risk. Those who use mercury in folk remedies and
related to the ritual use of      religious practices, as well as others who live in buildings where such rituals are
mercury. He asked the U.S.        performed, may be exposed to mercury vapors. However, EPA and the
Environmental Protection          representative differ in how EPA should address the risks. The representative
Agency (EPA) Office of            believes EPA’s actions are insufficient and wants EPA to:
Inspector General to evaluate
EPA actions to address the            •	 regulate the use of mercury; and
problem. The representative           •	 be prepared to address what he believes are many homes throughout the
also asked us to look into
                                         United States that are contaminated by the ritual use of mercury.
whether EPA had falsified the
results of a study to measure
mercury vapors, or had            On the other hand, EPA staff:
deliberately designed the
study to fail.                        •	 believe that EPA regulations are not warranted at this time, and starting
                                         the process to establish such regulations would drive the practice
Background                               underground; and
                                      •	 have addressed the issue by providing community education and outreach,
Some people use mercury as               sponsoring research and environmental monitoring, and purchasing
part of folk remedies and                63 portable mercury analyzers for measuring mercury levels.
religious practices to: attract
luck, love, or money; protect     We agree with EPA’s assessment about regulating the ritual use of mercury, and
against evil; or speed the        believe the actions taken by EPA are consistent with current legal requirements.
action of spells. These uses
may pose health risks because     In 2002 and 2003, EPA performed a study measuring the levels of mercury vapors
mercury vapors can cause          from “spills” of differing amounts of mercury. One experiment simulated the
health problems, such as          ritual use of mercury. According to the representative, if the experiments had
damage to the nervous system.     been performed differently, the results may have been more realistic. However,
                                  the report details the experiments as they were performed, and identifies the
                                  related assumptions. We found no evidence that the study was inadequately
For further information,
contact our Office of             designed or the results falsified.
Congressional and Public
Liaison at (202) 566-2391.        Although we are not recommending additional actions by EPA, we are reporting
                                  the results of our work to further emphasize that the ritual use of mercury poses a
To view the full report,
click on the following link:
                                  health risk.
www.epa.gov/oig/reports/2006/
20060831-2006-P-00031.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL




                                         August 31, 2006

MEMORANDUM

SUBJECT:         EPA Is Properly Addressing the Risks of Using Mercury in Rituals
                 Report No. 2006-P-00031

TO:              Susan Parker Bodine
                 Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). It describes efforts by EPA to address the
risks of using mercury in folk remedies and religious practices, i.e., ritual uses. This report
represents the opinion of the OIG.

On June 28, 2006, we issued a draft of this report for review and comment. You generally
agreed with our conclusions, and suggested some changes to clarify and correct information in
the report. We made revisions based on your comments as we determined appropriate.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $62,274.

Action Required

Because this report contains no recommendations, you are not required to provide a written
response; we are closing this report upon issuance. We have no objection to the further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0847
or roderick.bill@epa.gov, or Paul McKechnie, Product Line Director for Public Liaison, at 617­
918-1471 or mckechnie.paul@epa.gov.




                                                             Bill A. Roderick
                                                             Acting Inspector General
               EPA Is Properly Addressing the Risks of Using Mercury in Rituals



                                Table of Contents 


Chapters
 1    Introduction ..........................................................................................................      1


              Purpose .........................................................................................................    1
              Background ....................................................................................................      1
              Scope and Methodology.................................................................................               2


 2    EPA Is Addressing Health Risks Posed by Ritual Use of Mercury...................                                             3


              Few Legal Requirements Specifically Relate to Ritual Use of Mercury..........                                        3

              EPA Staff Believe Regulatory Action Is Not Warranted..................................                               4

              EPA Has Taken Actions .................................................................................              5

              Conclusion .....................................................................................................     8

 3    EPA Did Not Falsify Results of Study Measuring Mercury Vapors .................                                              9


              EPA Study Measured Mercury Vapors...........................................................                         9

              EPA Changed Report to Address Some Concerns of Representative ..........                                            10 

              Study Team Obtained Input on Study Design ...............................................                           11 

              No Indication Report Data Was Falsified .......................................................                     12 

              It Is Difficult to Evaluate Whether Study Results Were Unrealistic.................                                 12 

              Conclusion .....................................................................................................    13

 Status of Recommendations and Potential Monetary Benefits.................................                                       14     




Appendices
 A    Agency Response to Draft Report ......................................................................                      15


 B    Distribution ...........................................................................................................    19

                                Chapter 1
                                 Introduction

Purpose
          In February 2005, a representative of the Mercury Poisoning Project (the
          representative) asked the U.S. Environmental Protection Agency (EPA) Office of
          Inspector General (OIG) to address concerns about the ritual use of mercury. The
          Mercury Poisoning Project is a private organization that provides the public with
          information on the dangers of being exposed to mercury. The representative said
          there was widespread mercury contamination in Latino and Caribbean homes in
          the United States as a result of rituals. Because of this belief by the
          representative, he wanted the OIG to determine whether EPA had adequately
          investigated whether such contamination poses an environmental health threat
          and, if so, had EPA substantively acted to address its dangers. Regarding a study
          EPA performed simulating the ritual use of mercury in a trailer, the representative
          alleged that EPA had falsified the study results, or had deliberately designed the
          study to fail.

Background
          Mercury, in its liquid metal form, is used in some folk remedies and religious
          practices. Certain Latino and Afro-Caribbean traditions, including Santeria, Palo,
          Voodoo, and Espiritismo, use mercury to: attract luck, love, or money; protect
          against evil; or speed the action of spells. This is done through a variety of uses,
          including wearing in amulets, sprinkling on the floor, or adding to a candle or oil
          lamp. In addition, some people add it to detergent or cosmetic products. Mercury
          can be obtained from religious supply stores known as botanicas.

          Inhaling mercury vapors is hazardous to human health. At high exposures,
          through inhalation, mercury vapors can produce severe lung, gastrointestinal, and
          nervous system damage. Using mercury in cultural and religious practices
          (i.e., ritual uses) can expose people to mercury vapors. At room temperature,
          uncontained mercury can evaporate and become an invisible, odorless toxic
          vapor. At higher temperatures, these concentrations increase. Very small
          amounts of mercury (even a few drops) can raise air concentrations of mercury to
          harmful levels, particularly in poorly ventilated spaces. The longer people
          breathe the contaminated air, the greater the risk to their health.

          EPA staff have been aware of dangers from the ritual use of mercury for over a
          decade. In 1993, EPA issued RM2 Assessment Document for Cultural Uses of
          Mercury, which identified concerns about the ritual use of mercury. At that time,
          EPA considered regulating such use under the Toxic Substances Control Act


                                           1

         (TSCA). Instead, EPA chose to implement a public education campaign that the
         three national Hispanic organizations they consulted had encouraged. The danger
         posed by the ritual use of mercury was recognized again in December 1997, when
         EPA released an eight-volume Mercury Study Report to Congress. Volume 3 of
         this study identified mercury used in some ritualistic practices as a miscellaneous
         source of mercury exposure.

Scope and Methodology
         We performed this review in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States, except that we limited our
         review of management controls and compliance to those directly relating to the
         issues identified by the representative.

         We performed our work from September 2005 through April 2006. As part of our
         work, we interviewed EPA employees from the Office of Solid Waste and
         Emergency Response and the Office of Prevention, Pesticides, and Toxic
         Substances. In addition, we reviewed a variety of documents provided by the
         representative, EPA staff members, and others. We also reviewed documents
         obtained through the Internet, particularly the Websites of EPA, the Centers for
         Disease Control and Prevention, and the Agency for Toxic Substances and
         Disease Registry (ATSDR).

         On June 28, 2006, the OIG issued a draft report to the EPA Assistant
         Administrator for Solid Waste and Emergency Response for review and
         comment. The Assistant Administrator responded on August 4, 2006. She agreed
         with the conclusions presented, and offered comments to clarify and correct
         information in the report. We include the Assistant Administrator’s memorandum
         in Appendix A. As appropriate, we revised the report based on these comments,
         as well as less formal comments provided by staff from the Office of Prevention,
         Pesticides, and Toxic Substances.

         Although we are not recommending additional actions by EPA, we are reporting
         the results of our work to further emphasize that the ritual use of mercury poses a
         health risk.




                                          2

                                 Chapter 2
               EPA Is Addressing Health Risks
               Posed by Ritual Use of Mercury

          EPA staff agree with the representative that vapors from the ritual use of mercury
          are dangerous to people, and the vapors continue to be emitted for some time.
          However, while regulating such use might be possible under an existing law, EPA
          staff do not agree with the representative that regulations would be appropriate.
          This is primarily because EPA staff believe starting the process to establish such
          regulations would drive the practice underground. EPA is instead taking other
          actions to address the risks, including community education and outreach,
          research and environmental monitoring, and responding to mercury releases.

Few Legal Requirements Specifically Relate to Ritual Use of Mercury
          The Federal Government regulates mercury in a variety of ways, but these
          requirements do not directly address the ritualistic use of mercury. Mercury is
          designated as a hazardous air pollutant under the Clean Air Act and a pollutant
          under the Clean Water Act, and has a safe drinking water standard under the Safe
          Drinking Water Act. Mercury is also regulated by the Occupational Safety and
          Health Administration, which established a limit in the workplace of no more than
          0.1 milligrams of mercury per cubic meter of air as an 8-hour weighted average.
          Although the Agency for Toxic Substances and Disease Registry has proposed
          residential mercury limits, no one has established similar limits for residential air.
          Further, with the exception of radon, EPA does not have clear statutory authority
          under the Clean Air Act to regulate indoor residential air.

          Mercury is designated a hazardous substance under the Comprehensive
          Environmental Response, Compensation, and Liability Act, with a reportable
          quantity of one pound. Under this Act, a spill or release of a hazardous substance
          may be cleaned up to protect the public health or welfare, or the environment.
          Thus, EPA can take actions to clean up a spill or release of mercury. EPA has
          responded to a number of such incidences, and has guides on what to do in these
          situations. General cleanup instructions are also available to the public on EPA’s
          Website at http://www.epa.gov/epaoswer/hazwaste/mercury/faq/spills.htm.

          The Consumer Product Safety Commission has the authority under the Federal
          Hazardous Substance Act to require precautionary labeling for products
          containing mercury. Through enforcement letters, the Consumer Product Safety
          Commission has taken action against major suppliers of mercury to botanicas and
          botanica wholesalers. The large number of small distributors makes further
          enforcement activities resource-intensive.



                                            3

                A current law under which EPA might be able to regulate the ritual use of
                mercury is TSCA. TSCA provides that chemical substances and mixtures that
                present an unreasonable risk of injury to health or the environment may be
                regulated. Since TSCA included elemental substances in its definition of a
                chemical substance, mercury would be covered under the law and thus could be
                regulated.

                Under section 6 of TSCA, when chemical substances present an unreasonable risk
                of injury to health or the environment, the EPA Administrator may issue
                regulations to: prohibit or limit activities that use the substance, limit how much
                may be used, require warnings or instructions, require records, establish
                requirements for disposal of the substance, or require notices about the risks
                posed and information about replacing or repurchasing the substance. Before
                promulgating regulations, the Administrator must consider the effects, benefits,
                and economic consequences, and select the least burdensome restriction(s) that
                adequately protect against the risk. TSCA section 6 requires a high standard of
                support, including a risk assessment.

EPA Staff Believe Regulatory Action Is Not Warranted
                Little of the information needed for a risk analysis of the ritual use of mercury is
                available. Studies have confirmed that mercury is used for rituals in the home,
                and there are elevated levels of mercury in some buildings. Also, the New
                York/New Jersey harbor is believed to be contaminated by mercury, in part,
                because of ritual uses; however, the extent to which ritual uses contributed to this
                contamination could not be determined. One study found 5 of 100 children had
                elevated levels of mercury, while none of 347 children in another study had
                elevated levels. None of these studies were national in scope. In addition, no
                studies have directly connected elevated mercury levels in a person (or related
                adverse health effects) to the ritual use of mercury.

                For several reasons, EPA Staff believe regulating the ritual use of mercury would
                not be appropriate:

                         It would drive the practice underground. One of the most important
                         reasons is their belief that taking actions to start the regulatory process will
                         drive the sale of mercury underground. EPA drew this conclusion in its
                         1993 assessment document. The same conclusion was reached in a 2001
                         article in Environmental Health Perspectives.1 The authors of this article
                         reported that a member of their team was able to buy mercury at botanicas
                         where botanica employees had previously told other team members they
                         did not sell mercury. From this, the team concluded that the stricter the
                         enforcement actions, the further underground mercury sales and use will


1
 Assessing Elemental Mercury Vapor Exposure from Cultural and Religious Practices, Environmental Health
Perspectives, Volume 109, Number 8, August 2001, pages 779-784, Donna M. Riley, et al.


                                                     4

                         go. Similar sentiments were expressed to the EPA-sponsored Task Force
                         on Ritualistic Uses of Mercury, and in two other recent reports.2

                         It might violate the Constitution. Because some of the rituals are
                         associated with religious practices, restricting the use of mercury might be
                         challenged as a violation of the First Amendment.

                         It can be addressed by local authorities. EPA believes the ritual use of
                         mercury is not a national problem, but is localized, making action under
                         TSCA more difficult.

                         The United Nations is addressing mercury on a world-wide level. The
                         United Nations has begun a program to reduce the use of mercury, which
                         may decrease the ritual use of mercury in the United States. The United
                         Nations program has several components, including conducting studies on
                         the amount of mercury being traded and supplied worldwide, and
                         improving the communication of the risks of mercury to vulnerable
                         groups.

EPA Has Taken Actions
                 EPA has taken multiple actions to address the ritual use of mercury. In January
                 1999, EPA’s Office of Emergency and Remedial Response convened a multi-
                 agency Task Force on Ritualistic Uses of Mercury to recommend an appropriate
                 course of action. In forming the multi-agency task force, EPA hoped to gain a
                 better understanding of these practices and traditions, and their potential public
                 health and environmental impacts. In December 2002, EPA issued the Task
                 Force on Ritualistic Uses of Mercury Report (2002 Task Force Report).3 This
                 report recommended that EPA provide community outreach and education; assist
                 with research and environmental monitoring, including providing guidance on
                 instruments that measure mercury; and continue responding to mercury releases.
                 EPA is doing these things; details follow.

                 Education and Outreach

                 EPA has actively pursued greater community education and outreach. In 1994,
                 EPA published the “Information Fact Sheet: Hazards to Consumers Using
                 Metallic Mercury in the Home Environment,” providing examples of unsafe
                 household use related to rituals. In April 2004, EPA published a pamphlet,
                 “Protect your Family from Mercury in your Home.” This pamphlet noted that if
                 mercury is used in a folk remedy or spiritual practice, and “If you store or use
                 mercury, it is best to do it outside. If you must have it inside, keep it in

2
  HIDDEN DANGER - Environmental Health Threats in the Latino Community, October 2002, Natural Resources 

Defense Council; and Cultural Uses of Mercury Program, February 2005, National Association of City and County 

Health Officials. 

3
  OSWER 9285.4-07, EPA/540-R-01-005, at http://www.epa.gov/superfund/action/community/mercury.pdf. 



                                                      5

unbreakable, disposable containers. Never put it on the floor, furniture, or
carpet.” Such a pamphlet was recommended by the 2002 Task Force Report.
EPA is also preparing a video for use in schools. The reports referenced above
had such recommendations. The representative has also advocated education
programs.

Research and Environmental Monitoring

The 2002 Task Force Report also recommended research and environmental
monitoring. As part of the research, EPA provided funds for a report by the
National Association of City and County Health Officials. The report suggested
steps to be taken by local public health agencies to address the ritual use of
mercury, including methods for identifying and engaging susceptible populations,
building partnerships with leaders within those populations, and working with the
leaders to give joint messages. In addition, EPA recently provided funds for
surveys and focus groups about the ritual use of mercury among Latino residents
in Lawrence, Massachusetts. The study includes indoor air testing of homes and
botanicas.

EPA has funded general research on mercury, such as how it is affected by
atmospheric processes, reducing people’s exposure to mercury, and the effects of
such exposure. At the request of EPA, the National Health and Nutrition
Examination Survey is collecting information about mercury levels in human hair,
blood, and urine, and EPA is evaluating these results as they become available.
However, because of study limitations, any elevated mercury levels found cannot
be tied directly to ritual uses. Although survey participants are interviewed, there
are no questions about the ritual use of mercury; the survey is intended to identify
mercury trends in the general population of the United States.

EPA performed a study of newer instruments to measure mercury vapor levels;
another recommendation in the 2002 Task Force Report. Additional research
funded by EPA, although not specifically looking at the effect of ritual use of
mercury, is underway on measuring the harmful effects of mercury. One study is
being conducted by the University of Miami; the other by the New York
Department of Environmental Conservation.

Equipment for Responding to Mercury Releases

The complainant noted his belief that when responding to releases due to the
ritual use of mercury, there will be a need for portable instruments to measure
mercury levels as well as air filtering equipment to remove mercury vapors
without evacuating homes. He believes it is inevitable that a large number of
contaminated homes will be found throughout the United States, and it is prudent
for EPA to stockpile instruments and equipment now.




                                 6

We believe that the current EPA          Table 2.1: Relationships of Measures
inventory of mercury analyzers is
sufficient to respond to most                  Metric Measurements for
                                           Small Amounts of Mass (or Weight)
situations that would require                      That Equal 1 Gram
measuring mercury in the air. EPA                    1,000 milligrams
owns 63 analyzers that measure                    1,000,000 micrograms
mercury vapors, and plans to buy
                                                1,000,000,000 nanograms
2 more. These analyzers cost from
$10,000 to $20,000 each. Most of         Source: Federal Standard 376B, Preferred
                                         Metric Units for General Use by the Federal
EPA’s inventory consists of one of       Government, January 27, 1993
the following two types:

   •	 The Jerome 431-X mercury vapor analyzer, a portable, hand-held unit that
      can measure mercury vapors from 0.003 to 0.999 milligrams per cubic
      meter.
   •	 The Lumex RA-915+ mercury analyzer, a light-weight portable unit that
      can measure mercury in the ambient air as low as 2 nanograms per cubic
      meter.

EPA also owns Mercury Tracker 3000 analyzers. The Mercury Tracker 3000 is a
portable instrument that continuously samples mercury vapors. It measures mean
concentrations from 0.1 to 2,000 micrograms per cubic meter over a time interval
selected by the user.

EPA has conducted minimal testing of filtering equipment. However, its
Environmental Technology Verification Program is capable of such testing. The
program develops testing protocols and verifies the performance of innovative
technologies that have the potential to improve protection of human health and the
environment. Technology vendors are welcome to participate. Among the
protocols already approved under the program is a protocol to evaluate general
ventilation filters, which may be applicable to mercury filtering equipment.




                                7

Conclusion
         Mercury vapors resulting from ritual uses can pose a health risk. Persons
         involved in such rituals should be aware of these risks through precautionary
         labels. These labeling requirements are enforced by the Consumer Product Safety
         Commission, not EPA. To further increase awareness of the risk, EPA and others
         provide community education and outreach materials. EPA’s education and
         outreach is important and should be continued because, although the ritual use of
         mercury may be a minor source with regard to the overall use in the general
         population, the vapors resulting from ritual uses can produce highly elevated
         mercury levels. Besides education and outreach, EPA has funded some research
         on the issue. Thus, within the current legal framework, EPA has addressed the
         health risks posed by the ritual use of mercury. Although we are not
         recommending additional actions by EPA, we are reporting our results to further
         emphasize that the ritual use of mercury poses a health risk.




                                         8

                                           Chapter 3
                       EPA Did Not Falsify Results of
                      Study Measuring Mercury Vapors

                 We found no evidence that a study conducted by EPA to measure the levels of
                 mercury vapors resulting from spills was designed to mislead, nor did we find that
                 the results were falsified, as alleged. EPA performed this study, part of which
                 simulated mercury released during ritual use, in response to a recommendation in
                 the 2002 Task Force Report. Before starting experiments, the study team talked
                 with others (including the representative) so the work would correctly reflect the
                 ritual use of mercury. EPA used analyzers to measure the mercury vapors in the
                 air during the experiments, and EPA’s report presented measurement averages.
                 Mercury levels are affected by several variables, making it difficult to compare
                 the results of experiments to real situations.

EPA Study Measured Mercury Vapors
                 EPA conducted a study4 with the objectives to (1) assess what happens to mercury
                 vapors in a home, including those resulting from cultural uses of mercury; and
                 (2) evaluate instruments that quickly monitor mercury vapors. This study did not
                 explore potential health risks. EPA also used data collected to develop models to
                 predict how long and at what levels mercury would contaminate indoor air. EPA
                 conducted this study from January 14, 2002, through March 27, 2003.

                 In the study, EPA performed 10 experiments that simulated the following
                 scenarios concerning mercury:

                      •	 Spilling or sprinkling 2 to 15 grams of mercury on a carpet in a large and a
                         small room of a trailer.
                      •	 Placing different weights of mercury inside two candles to determine the
                         relative importance of weight versus surface area on the level of mercury
                         vapors.
                      •	 Spilling mercury from a broken thermometer on a carpet in a small room.
                      •	 Shaking drops of liquid mercury, or beads, to simulate mercury being
                         disturbed by household activities, such as children playing.

                 The study found that intentionally sprinkling mercury for ritual purposes, or
                 accidentally spilling mercury, may produce indoor air concentrations above the

4
  The related report, Ritualistic Use of Mercury Simulation: A Preliminary Investigation of Metallic Mercury Vapor
Fate and Transport in a Trailer, OSWER 9285.4-08, EPA/540/-04/006, dated January 2005, is at
http://www.epa.gov/superfund/action/community/merc_rep05.pdf.



                                                        9

                ATSDR-proposed residential occupancy level. This is the level considered safe
                and acceptable for people to stay in a building after a mercury spill, provided no
                visible mercury is present and the mercury source has been removed. In some
                cases, the initial mercury concentration in the air also exceeded the ATSDR-
                recommended indoor action level for isolation, a concentration at which steps
                should be taken to prevent people from being exposed to the mercury.

                The indoor air mercury vapor level depended on the total exposed surface area of
                the mercury, the amount of mercury used, and the size of the room. The indoor
                air mercury level decreased over time and, in most cases, eventually fell below
                the ATSDR-proposed residential occupancy level. Increases in indoor air
                mercury concentration were observed when the mercury source was physically
                disturbed or shaken, more mercury was added, physical activity occurred near the
                source, or temperatures exceeded 90°F. Periodically applying a small amount of
                mercury over a long time in the same room could lead to continually exposing
                people to levels of mercury vapors above the proposed residential occupancy
                level.

                EPA developed a model to describe the relationship between the level of mercury
                vapors in the air and the evaporation of the mercury source over time. The model
                assumes all environmental factors are stable (constant), including temperature,
                ambient air pressure, and the effects of static electricity. It also assumes that the
                mercury source remains undisturbed. However, the model cannot predict the final
                level of mercury vapors due to a lack of information on how time, temperature,
                etc., affect elemental mercury exposed to air. Although it cannot predict the final
                level, the model indicates that after reaching a maximum value, mercury vapor
                levels continuously decrease to a final level typically less than 5 percent of the
                maximum level after 50 to 60 hours, assuming the mercury is undisturbed.

                EPA developed a second model to give a rough estimate of the average level of
                mercury vapors in indoor air over various time intervals. This approach is based
                on periodic activity in a room producing additional mercury vapors. The model
                may not be appropriate for situations in which the mercury is disturbed on a
                regular basis or is repeatedly applied.

EPA Changed Report to Address Some Concerns of Representative
                In his complaint to the OIG and his comments on the draft EPA study report, the
                representative claimed that EPA falsified the study results simulating the ritual
                use of mercury. In his comments on the draft report, the representative said the
                study “seriously understates the mercury vapor levels present in actual dwellings
                where mercury has been put to ritualistic use.” According to him and his
                reference to a study5 on gaseous elemental mercury, EPA’s results were
                inconsistent with measurements from real incidents. The representative believed
5
 Gaseous Elemental Mercury as an Indoor Air Pollutant, Environmental Science & Technology, Volume 35,
Number 21, September 2001, pages 4170-4173, Anthony Carpi and Yung-Fou Chen.


                                                    10 

         EPA deliberately designed the study to fail, and criticized the people involved for
         preparing a report that was unrealistic. Thus, he believed the results did not
         provide useful estimates of residential exposure, which was one of the study
         objectives. According to the representative, EPA should repeat the study using
         different floor types and include simulations of people moving about in the room.

         EPA’s January 2005 final report was very similar to the July 2004 draft report on
         which the representative commented. Noteworthy additions included clarifying
         what happened during the experiments and noting qualifications about the results.
         Other changes addressed concerns of the representative, but the report
         recommendations were not changed as suggested. In addressing the
         representative’s comments, EPA replaced its objective about estimating
         residential exposure with an objective on evaluating monitoring instruments.
         EPA added a reference to the study on gaseous elemental mercury, and included a
         paragraph to explain why the results were not comparable, i.e., the sampling
         design and methodology used in the study on gaseous elemental mercury differed
         substantially from that used in the EPA study. Further, EPA added a sentence
         stating it was unlikely mercury in an actual home would be undisturbed.

Study Team Obtained Input on Study Design
         We believe that EPA intended the study to simulate the ritual use of mercury, and
         did not design it to produce specific results. When developing work products,
         EPA believes it can be beneficial to have interaction of subject matter experts
         from within and outside EPA, so it encourages staff to obtain peer input when
         planning scientific work. However, for this particular study, peer input was not
         required as it would have been if, for example, the study was expected to produce
         controversial findings. Even so, at least twice before the study started, EPA staff
         discussed the study with the representative, who was very enthused about what
         EPA was going to do. They exchanged emails about the proposed work and the
         representative visited the site of the study to tour the trailer.

         In addition, since an important goal of the study was to simulate the use of
         mercury for ritual purposes, a team member contacted a practitioner to determine
         how mercury is used in rituals in the home. Experiment 1 was designed to mimic
         the ritual uses described by the practitioner. EPA staff noted several variables in
         Experiment 1 could have been changed. For example, the practitioner offered to
         visit the study site and spread the mercury. The study team declined the offer,
         believing it would create a credibility problem for the study. The experiments
         could have used different types of floors or furniture, or tried to disturb the
         mercury in different ways, which may have led to different results. However, the
         report describes conditions existing during the experiments.




                                          11 

No Indication Report Data Was Falsified
                We found no indication that EPA falsified report data. EPA used real-time
                monitoring instruments to take readings on the concentration of mercury vapors in
                the air for all 10 experiments in the study. In addition, the air was sampled and
                analyzed by a laboratory using the modified NIOSH (National Institute for
                Occupational Safety and Health) Method 6009, which is the standard for mercury
                analysis. Averages of the instrument readings were presented in the report.
                Although we did not review the actual readings, we reviewed documents showing
                reading averages. For one experiment, we compared the averages for the first 44
                hours of monitoring to the concentrations identified in the report. We found that
                the report correctly showed the average of the readings, although the first
                concentration level shown exceeded the average of the 10-minute averages by a
                small amount – 0.05 micrograms per cubic meter.

                A different study6 on mercury evaporation produced results similar to the EPA
                study. The author measured the evaporation rates of two drops of mercury at
                room temperature. The smaller drop weighed about 0.2 grams and had a diameter
                of roughly 3 millimeters; the larger, nonspherical drop had a mass about 10 times
                larger. For the larger drop, but not the smaller one, the size of the drop decreased
                over time in a linear manner. A member of the EPA study team reviewed this
                study and concluded that results for the larger drop were similar to what happened
                to drops in the EPA study that were 0.5 centimeters in size. Given the room
                volume and air exchange rate identified in the study, the level of mercury vapors
                and the rate at which the mercury decreased, as measured in the study, were in
                agreement with those predicted by the models in the EPA report.

It Is Difficult to Evaluate Whether Study Results Were Unrealistic
                Results from EPA’s study were not consistent with data collected from some
                actual mercury spills. EPA’s Experiment 3 simulated breaking a thermometer.
                The initial mercury reading in the trailer was 7,200 nanograms per cubic meter.
                After 162 hours (or 6.75 days) without remediation, the level declined to 80
                nanograms. Data from an actual broken thermometer incident, however, showed
                that mercury vapors were 5,000 nanograms after 7 days.

                Table 3.1 notes mercury vapor measurements taken from the sites of four actual
                incidents in which a mercury-containing thermometer was broken in a residential
                setting. The period of time after the thermometer was broken and the mercury
                vapor level at that time is shown.




6
 The evaporation of a drop of mercury, Am. J. Phys., Volume 71, Number 8, August 2003, pages 783-786, Thomas
G. Winter.


                                                    12 

             Table 3.1: Mercury Vapor Readings from Four Residential Spills
                                                                              Mercury Vapor Level
             Location of Spill                   Time Since Spill         (nanograms per cubic meter)
             Dresser in bedroom                           5 days                       14,270
             Vinyl floor in kitchen                       7 days                        5,000
             Tile floor in bathroom                      6 months                         523
             Tile floor in bathroom                      15 years                          45
             Sources: Articles cited in Footnotes 1 and 6 of this report, and a 2004 ATSDR Health
             Consultation


         The measurements in the first three incidents substantially exceeded the final
         measurement in EPA Experiment 3. However, many variables affect
         measurements of mercury vapors, such as room size, temperature, and air flow.
         Thus, these readings may not be comparable and, without further study, the
         differences do not prove the EPA experiment was unrealistic.

Conclusion
         The report on EPA’s study simulating the ritual use of mercury describes the
         work performed and related assumptions. We found no indications that the study
         was designed to produce specific results, or that the data was falsified. Therefore,
         we are not making any recommendations.




                                                  13 

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                    POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                   BENEFITS (in $000s)

                                                                                                        Planned
    Rec.    Page                                                                                       Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1       Action Official      Date      Amount      Amount


                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                              14 

                                                                                  Appendix A

                  Agency Response to Draft Report


August 4, 2006

MEMORANDUM

SUBJECT:      	Response to Draft Public Liaison Report:
              EPA Is Properly Addressing the Risks of Using Mercury in Rituals
              Assignment No. 2005-1655

FROM: 	       Susan Parker Bodine/s/
              Assistant Administrator

TO: 	         Paul D. McKechnie
              Director of Public Liaison
              Office of Congressional and Public Liaison


        The purpose of this memorandum is to provide a written response on the findings of the
June 28, 2006 Draft Public Liaison Report: EPA Is Properly Addressing the Risks of Using
Mercury in Rituals Assignment No. 2005-1655. We have reviewed the draft report and agree
with the conclusions presented in the report. Below you will find some general comments that
are intended to clarify or correct points presented in the draft report.

Page 3:
   •	 Summary of legal requirements pertaining to mercury in residential air: The OSHA PEL
        of 0.1 mg/m3 for occupational exposure is not currently listed in the OSHA “Z” tables of
        legally enforceable standards.

   •	 There is a NIOSH Recommended Exposure Limit (REL) of 0.05 mg/m3 (not legally
      enforceable). While it is true that no legally enforceable residential limits have been
      established, there are several published advisories or recommendations worthy of note,
      specifically:

           o	 ATSDR’s proposed residential occupancy level of 1.0 µg/m3 as the mercury level
              considered “safe and acceptable” for occupancy of any structure after a spill;
           o	 ATSDR’s recommended indoor air action level of 10 µg/m3 at which measures
              should be taken to isolate residents from potential mercury exposure;
           o	 ATSDR chronic minimal risk level, or MRL, of 0.2 µg/m3;
           o	 USEPA reference concentration, or RfC, of 0.3 µg/m3.



                                               15 

   •	 Both the ATSDR MRL and EPA RfC are estimates of the chronic (long-term) daily
      human exposure that is likely to be without appreciable risk of adverse, non-cancer health
      effects.

Page 4, bottom:
   •	 “Studies have confirmed that…New York/New Jersey harbor is believed to be
       contaminated by mercury, in part, because of ritual uses.” While studies have been
       conducted of mercury contamination of the harbor, the belief that it derives in part from
       ritual uses is based on inferences drawn from a single survey of mercury disposal
       practices among NYC mercury users, rather than direct evidence.(1)

   •	 A major NY Academy of Sciences study(2) of mercury in the NY/NJ harbor, provided an
      estimate of mercury releases from religious/cultural use (representing less than 4% of
      total mercury releases in the harbor watershed), but noted the very low confidence level
      (90% error) associated with this estimate, and stated: “Given the large error bars and the
      lack of a full understanding of the extent of the problem and no data on how this mercury
      makes its way to the Harbor, religious and cultural uses will not be dealt with further in
      this document.”

   •	 Thus, the ritual use of mercury as a significant source of NY/NJ harbor mercury
      contamination has not been “confirmed.” (It should also be noted that one reference[3]
      bases a claim of excess mercury in influent to NYC wastewater treatment plants
      “apparently associated with ritualistic mercury use” on a presentation by the NYC
      Department of Environmental Protection.[4])

   •	 References for the footnotes above:

           o	 1. Johnson, C. 1999. Elemental mercury use in religious and ethnic practices in
              Latin American and Caribbean communities in New York City. Pop. Environ. 20
              (5): 443-453.
           o	 2. de Cerreno, A.L., M. Panero, S. Boehme. 2002. Pollution Prevention and
              Management Strategies for Mercury in the New York/New Jersey Harbor. New
              York: New York Academy of Sciences.
           o	 3. Wendroff, A.P. 2005. Magico-religious mercury use in Caribbean and Latino
              communities: Pollution, persistence, and politics. Environ. Practice 7(2): 87-96.
           o	 4. New York City Department of Environmental Protection. 2004. Mercury
              track-down Washington Heights. Power point presentation.

Page 7:
   •	 The description of EPA mercury analyzers should be revised. The Jerome 431-X mercury
        vapor analyzer cannot measure mercury down to the nanogram/m3 range, as stated in the
        IG Report. The description of this instrument should be revised to read as follows:
           o	 The Jerome 431-X mercury vapor analyzer is a portable, hand-held unit that
               reports mercury vapor in mg/m3 (measuring range from 0.003 to 0.999 mg/m3).

   •	 The description of the Lumex RA-915+ should be changed to read as follows:


                                               16 

           o	 The Lumex RA-915+ is a lightweight portable unit that can measure mercury in
              ambient air in ng/m3 (detection limit of 2 ng/m3).

   •	 Add the following additional bullet to the description of EPA’s mercury response 

      inventory: 

         o	 The Mercury Tracker 3000 is a portable, direct-reading instrument that provides
             continuous measurement of mean mercury vapor concentrations in µg/m3 (from
             0.1 to 2000 µg/m3) over a user-selected sampling time interval.

Page 9, end of first paragraph:
•	 This confuses two separate ATSDR recommended residential mercury levels and should be
   revised as follows:
           o	 The study found that intentional sprinkling of metallic mercury for ritual
               purposes, or accidentally spilling mercury, may produce indoor air concentrations
               above the ATSDR proposed residential occupancy level. This is the level
               considered safe and acceptable for occupancy of a structure after a mercury spill,
               provided no visible metallic mercury is present and the mercury source has been
               removed. In some cases, the initial mercury concentration in air also exceeded
               the ATSDR recommended indoor action level for isolation, a concentration at
               which measures should be taken to prevent exposure to residents.

Page 9, bottom and 10, top:
   •	 The complainant asked the Agency to add a reference to the report, i.e., the Carpi and
       Chen study of mercury in dwellings. We recommend the IG report should stress the
       reasons why the results of the EPA study were not comparable to the Carpi and Chen
       study, i.e., the sampling design and methodology used by Carpi and Chen differed
       substantially from that used in the EPA Trailer study. Furthermore, Carpi and Chen’s
       methodology is open to question; for example, the paper did not explain how specific
       residences were selected, or whether residents were told the purpose of the study (or the
       results of the sampling) before being interviewed.

   •	 Also, the ascertainment that a mercury spill had actually occurred was strictly anecdotal,
      relying on tenant reports of spills (in one case, from many years earlier). If no spill could
      be recalled, the investigators simply assumed that one must have occurred. Areas of
      increased airborne mercury in one apartment were attributed to emissions of mercury
      from a small area of a wooden floor, even though there was no reported history of a spill;
      other possible sources (e.g. the location of this section of floor relative to windows) were
      not considered.

   •	 For these reasons, their study cannot be viewed as a study against which the EPA Trailer
      Study is to be compared; nor is any inconsistency of results between these two studies an
      indication of malfeasance.




                                                17 

Page 10, bottom:
   •	 “We found no indication that EPA falsified report data. EPA used real-time monitoring
       instruments to take readings on the concentration of mercury vapors in the air…” In fact,
       the EPA not only used two types of real-time monitoring instruments, but also took air
       samples for laboratory analysis by NIOSH method 6009, the “standard” for mercury
       analysis, providing further evidence that study data were valid.

   •	 Although the IG “did not review the actual readings” (page 11), a data package
      containing all readings for experiment 3 was provided to the IG Office along with the
      EPA Trailer Report.

Page 11:
   •	 There is no reference provided for the data from four spills involving mercury
       thermometers. As the IG Report correctly notes, “…many variables affect measurement
       of mercury vapors, such as room size, temperature, and air flow. Thus, these readings
       may not be comparable…” In the absence of additional information on these variables, as
       well as flooring type, degree of disturbance of the mercury, sampling methodology and
       sampling interval, one cannot conclude that the EPA Trailer Report should have provided
       similar results.

Page 11:
   •	 The reference to the Winter study of evaporation of a mercury droplet should include the
       following at the end of the existing paragraph:

           o	 When Winter’s parameters for room volume and air exchange rate are used with
              the mercury concentration prediction model in the EPA report to predict mass loss
              rates and mercury concentrations, the results are in good agreement with Winter’s
              measured mass loss rates and estimated maximum Hg vapor concentrations.

        If you have any questions regarding these comments, please contact Suzanne Wells at
(703) 603-9925 or Raj Singhvi at (732) 321-6761. Thank you for the opportunity to comment on
the draft report.




                                               18 

                                                                                   Appendix B

                                     Distribution

Office of the Administrator
Assistant Administrator for Prevention, Pesticides, and Toxic Substances
Assistant Administrator for Air and Radiation
Audit Coordinator, Office of Solid Waste and Emergency Response
Audit Coordinator, Office of Prevention, Pesticides, and Toxic Substances
Audit Coordinator, Office of Air and Radiation
Chief, Community Involvement and Outreach Branch, Office of Solid Waste and
      Emergency Response
Chief, Emergency Response Team – Edison, NJ
Director, National Program Chemicals Division, Office of Prevention, Pesticides,
      and Toxic Substances
Director, Exposure Assessment Coordination and Policy Division, Office of
      Prevention, Pesticides, and Toxic Substances
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                              19 

